<html>
<title> - THE FIRST LINE OF DEFENSE: REDUCING RECIDIVISM AT THE LOCAL LEVEL</title>
<body><pre>[Senate Hearing 111-370]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-370
 
   THE FIRST LINE OF DEFENSE: REDUCING RECIDIVISM AT THE LOCAL LEVEL

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 5, 2009

                               __________

                          Serial No. J-111-61

                               __________

         Printed for the use of the Committee on the Judiciary




                  U.S. GOVERNMENT PRINTING OFFICE
55-985                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Crime and Drugs

                 ARLEN SPECTER, Pennsylvania, Chairman
HERB KOHL, Wisconsin                 LINDSEY GRAHAM, South Carolina
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
BENJAMIN L. CARDIN, Maryland
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
               Hanibal Kemerer, Democratic Chief Counsel
                  Walt Kuhn, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cardin, Hon. Benjamin L., a U.S. Senator from the State of 
  Maryland.......................................................     1
    prepared statement...........................................    75
Leahy, Hon. Patrick, a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    86

                               WITNESSES

Bartle, Harvey, III, Chief Judge, U.S. District Court for the 
  Eastern District of Pennsylvania...............................     5
Burris, Doug, Chief Probation Officer, U.S. District Court for 
  the Eastern District of Missouri, St. Louis, Missouri..........     9
Cabral, Andrea J., Suffolk County Sheriff, Suffolk County, 
  Massachusetts..................................................     3
Lobuglio, Stefan, Chief, Pre-Release and Reentry Services 
  Division, Montgomery County, Maryland Department of Correction 
  and Rehabilitation, Rockville, Maryland........................     7
Muhlhausen, David B., Ph.D., Senior Policy Analyst, Center for 
  Data Analysis, The Heritage Foundation, Washington, D.C........    12
Solomon, Amy L., Senior Research Associate, Justice Policy 
  Center, Urban Institute, Washington, D.C.......................    10

                       SUBMISSIONS FOR THE RECORD

Bartle, Harvey, III, Chief Judge, U.S. District Court for the 
  Eastern District of Pennsylvania, statement....................    29
Beaty, James A., Jr., Chief Judge, U.S. District Court for the 
  Middle District of North Carolina, Winston-Salem, North 
  Carolina, letter...............................................    34
Britt, W. Earl, Senior Judge, U.S. District Court for the Eastern 
  District of North Carolina, Releigh, North Carolina, letter....    35
Burris, Doug, Chief Probation Officer, U.S. District Court for 
  the Eastern District of Missouri, St. Louis, Missouri, 
  statement......................................................    36
Cabral, Andrea J., Suffolk County Sheriff, Suffolk County, 
  Massachusetts, statement.......................................    41
Cacheris, James C., Senior Judge, U.S. District Court for the 
  Eastern District of Viginia, Alexandria, Virginia, letter......    53
Campbell, Tena, Chief Judge, U.S. District Court for the District 
  of Utah, Salt Lake City, Utah, letter and attachments..........    54
Fitzwater, Sidney A., Chief Judge, U.S. District Court for the 
  Northern District of Texas, letter.............................    77
Goodwill Industries of Monocacy Valley, Inc., Frederick, 
  Maryland, statement............................................    78
Holderman, James F., Chief Judge, U.S. District Court for the 
  Northern District of Illinois, letter..........................    84
Kane, Yvette, Chief Judge, U.S. District Court for the Middle 
  District of Pennsylvania, Harrisburg, Pennsylvania, letter.....    85
Leary, Mary Lou, Acting Assistant Attorney General, Department of 
  Justice, Washington, D.C., statement...........................    87
Legg, Benson Everett, Chief Judge, U.S. District Court for the 
  District of Maryland, Baltimore, Maryland, letter..............    95
Lisi, Mary M., Chief Judge, U.S. District Court for the District 
  of Rhode Island, Providence, Rhode Island, letter..............    97
Lobuglio, Stefan, Chief, Pre-Release and Reentry Services 
  Division, Montgomery County, Maryland Department of Correction 
  and Rehabilitation, Rockville, Maryland, statement.............    99
Manley, Stephen, Judge, Superior Court of California, County of 
  Santa Clara, statement.........................................   109
Mordue, Norman A., Chief Judge, U.S. District Court for the 
  Northern District of New York, Syracuse, New York, letter......   120
Muhlhausen, David B., Ph.D., Senior Policy Analyst, Center for 
  Data Analysis, The Heritage Foundation, Washington, D.C., 
  statement......................................................   121
Rosen, Gerald E., Chief Judge, U.S. District Court for the 
  Eastern District of Michigan, Detroit, Michigan, letter and 
  attachment.....................................................   133
Scirica, Anthony J., Chairman Executive Committee, Judicial 
  Conference of the U.S., Washington, D.C., statement............   176
Solomon, Amy L., Senior Research Associate, Justice Policy 
  Center, Urban Institute, Washington, D.C., statement...........   179
Walker, Vaughn R., Chief Judge, U.S. District Court for the 
  Northern District of California, San Francisco, California, 
  letter.........................................................   186
Woodcock, John A., Jr., Chief Judge, U.S. District Court for the 
  District of Maine, Bangor, Maine, letter.......................   188


   THE FIRST LINE OF DEFENSE: REDUCING RECIDIVISM AT THE LOCAL LEVEL

                              ----------                              


                       THURSDAY, NOVEMBER 5, 2009

                                        U.S. Senate
                            Subcommittee on Crime and Drugs
                                 Committee on the Judiciary
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin, Chairman of the Subcommittee, presiding.
    Present: Senators Cardin, Specter, and Sessions.

 OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. I have been informed by Senator Graham's 
staff that we can get started. Senator Graham will be joining 
us, the Ranking Republican on the Subcommittee.
    First, let me thank Senator Specter, who is the Chair of 
the Subcommittee, for allowing me to chair today's hearing. 
This is a subject of great interest not only to me, but I think 
to all the members of the United States, and that is, the 
``First Line of Defense: Reducing Recidivism at the Local 
Level.''
    When one looks at the incarceration rates in the United 
States, there is reason for concern. Our incarceration rates 
are five times the international average, andwe are the United 
States of America. In the Federal and state prisons between 
1980 and 2001, there was a 240-percent increase in the prison 
population. We now have somewhere around 2.3 million people, 
Americans, behind bars, 95 percent of whom will ultimately 
return to our community. And two-thirds of those who return to 
our community will be rearrested within 3 years.
    Now, if our principal objective is to improve public 
safety, we are not doing a very good job. We are incarcerating 
people over and over again who are committing criminal 
offenses, jeopardizing the safety of the people in our 
community.
    As we look at the reentry programs and services as a way to 
deal with these numbers and to make our communities safer, in a 
figurative sense, we have a captured audience when they are in 
our prison systems. They have our attention. They cannot go 
anywhere. We have the ability to provide services, whether that 
be education or counseling, in order to try to make reentry 
successful. And this is particularly true in our local jails, 
and I say that because one of the real challenges in reentry is 
to be able to deal with the community in which the person is 
going to be returning. Our local jails are much more likely to 
be the venue that people who are released from prison will end 
up in that community. So it is a particularly opportune place 
to have a reentry program based at local facilities in order to 
deal with the realities that the people will be returning to 
that community. If you are operating a Federal prison, the 
person is released and goes to another State, yes, you can do 
some reentry there, but you need to work with the local 
community.
    So local jails to me provide a real opportunity for dealing 
with successful reentry. The current census indicates that 
there are about 12 million admissions and releases per year in 
our local jails. That is 34,000 a day.
    Now, I have had a chance to visit the Montgomery County 
reentry program this past week, and, Chief, thank you for your 
hospitality. It was a real opportunity for me to see firsthand 
a program that works in the local community, but in 
coordination with the State and Federal facilities in order to 
deal with people who are going to reenter into Montgomery 
County, Maryland. I have also been to Frederick City in the 
State of Maryland and looked at their reentry program, which is 
a lot smaller and is somewhat more limited because of 
resources. But both in Montgomery County and in Frederick, they 
have successful reentry programs. Their numbers are much, much 
better than the national average, and I know we will be hearing 
more examples of that today as we look at ways of improving 
reentry services.
    We have real challenges. We have challenges because 60 
percent of the people that are in our prisons lack a high 
school diploma. Well, if you are going to try to get a job 
today and you do not have a high school diploma, you are 
limited. If you have been convicted of a crime, you have a 
limit as to being able to find a job. But if you do not have 
education, it makes it much more difficult. So we need to deal 
with the realities of education.
    The vulnerability on health, in the target groups that are 
in our prisons, two-thirds have some form of substance abuse. 
Well, you need to deal with that. Once again, how is the person 
going to be a reliable employee and successfully reenter 
society if they have a substance abuse issue that is not under 
treatment.
    Housing is a significant problem. I remember talking to my 
friends in Frederick about the stigma of someone coming out of 
prison to try to find a home in a community. The resources in 
order to be able to afford housing are limited. It made it 
very, very complicated.
    The location of facilities, it was interesting. The 
Montgomery County facility is located in a very interesting 
area, a very fine area in Montgomery County. It was there 
before the area was developed. Now when you try to put a 
reentry program in a community, it is a very difficult 
challenge politically to locate these facilities, and it all 
comes down to resources. Are we going to invest the resources 
to make reentry work? There are a lot of competing needs out 
there for budgets, and I would be very interested to see what 
progress we are making in getting the necessary resources out 
to our community in order to have a chance for these programs 
to be successful.
    It is for that reason I am very pleased that we have the 
real experts who are before us who have devoted their lives to 
dealing with reentry issues and dealing with trying to help our 
community through public safety through the programs that each 
of you have been responsible for. And I welcome you to the 
Committee.
    Let me introduce our panel, and then we will start in with 
the hearing, and let me say from the beginning that your 
statements all will be made part of the record. You will be 
able to proceed as you would like, and at the conclusion of the 
last person on the panel, we will open it up for some questions 
and discussion.
    We are joined by Andrea Cabral who is the sheriff of the 
Suffolk County Sheriff's Department in Boston, Massachusetts; 
Hon. Harvey Bartle III, the Chief Judge, United States District 
Court for the Eastern District of Pennsylvania; Stefan 
LoBuglio, who is Chief of the Pre-Release and Reentry Division, 
Montgomery County (Maryland) Department of Correction and 
Rehabilitation, from Rockville, Maryland; Doug Burris, the 
Chief Probation Officer, United States District Court for the 
Eastern District of Missouri; Amy Solomon, the Senior Research 
Associate from the Urban Institute in Washington, D.C.; and 
David Muhlhausen, the Senior Policy Analyst from the Heritage 
Foundation, a frequent witness before our Committee from 
Washington, D.C.
    Sheriff Cabral, we will start with you. Turn your 
microphone on, please.

STATEMENT OF ANDREA J. CABRAL, SUFFOLK COUNTY SHERIFF, SUFFOLK 
                     COUNTY, MASSACHUSETTS

    Sheriff Cabral. Thank you, Chairman Cardin.
    Senator Cardin. Turn your microphone on, please.
    Sheriff Cabral. I am sorry. I did not realize it was off. 
Thank you.
    In Massachusetts, there are two types of correctional 
facilities for adults: prisons and houses of correction. 
Prisons are run by the State Department of Correction and hold 
offenders convicted and sentenced in the Commonwealth's 
superior courts for very serious felonies, like rape, murder, 
drug trafficking, armed robbery, et cetera. There are 20 State 
prison facilities in Massachusetts and 13 county-based houses 
of correction. These facilities hold offenders who have been 
convicted and sentenced in the district courts for mid-level 
misdemeanors and certain felonies for which the district 
courts' jurisdiction is conferred by statute.
    Unlike State prisons, which can hold offenders for any 
period of years, up to and including life, sentences to the 
house of correction cannot exceed 2\1/2\ years for conviction 
on any single count of a criminal complaint. Offenders 
sentenced to the house of correction are eligible for parole 
upon completion of half their sentence, and 80 percent of the 
State's criminal business is resolved in the district courts. 
Thus, roughly 80 percent of incarcerated offenders are held in 
these houses of correction at the county level.
    In Massachusetts, the county sheriffs lead the way on 
reentry programs. Of the 14 sheriffs in the Commonwealth, 13 
operate county jails and houses of correction. As public 
officials elected county-wide every 6 years, the sheriffs are 
most knowledgeable about and most closely tied in to their 
communities. In addition to providing mutual aid to State and 
local law enforcement, the sheriffs also create the kinds of 
partnerships outside of law enforcement that result in strong, 
effective reentry programs.
    The potential impact of these reentry programs on the 
Commonwealth's cities and towns is clear. Collectively, the 
sheriffs hold in excess of 70,000 inmates and pre-trial 
detainees in their facilities in Massachusetts. Every year, 
more than 65,000 are released from county jails and houses of 
correction through bail, case resolution, parole, or release 
upon completion of sentence. By contrast, the State Department 
of Correction releases just over 3,000 inmates from 
Massachusetts State prisons annually.
    State prisons release offenders from facilities located in 
every corner of the State. Some make their way back to their 
communities, and some do not. By contrast, the majority of 
offenders held at county houses of correction hail from 
neighboring cities and towns and return immediately to those 
communities. In Suffolk County, for example, the house of 
correction holds approximately 1,500 inmates, 95 percent of 
whom live within 5 miles of the facility. The decisions they 
make within the first 48 hours after release will largely 
determine whether, if at all, they return to custody within 6 
months to a year. The goal of reentry programs is to provide 
support, skills, resources, and more opportunities to make 
positive choices.
    As you indicated, Senator Cardin, many inmates, especially 
those who present with persistent drug and alcohol addictions 
and those that have extensive involvement with the criminal 
justice system, live on life's margins. They have little or no 
job history, no stable housing, are grossly undereducated. We 
approximate that about 50 percent of our inmates are high 
school dropouts. They have suspended or revoked driver's 
licenses and no form of State-issued identification. This is 
also a persistently ``sick'' population, presenting with a 
number of chronic diseases like high blood pressure, diabetes, 
asthma, HIV and other sexually transmitted diseases, and 
hepatitis. There is also a high incidence, as you mentioned, of 
mental illness in this population. In the Commonwealth, the 
sheriffs estimate that approximately 42 percent of their 
populations present with some form of mental illness; 26 
percent of that 42 percent present with a major mental illness.
    We have, in fact, become the de facto mental health 
institutions, principal providers for drug detox and substance 
abuse treatment, and we often function as the primary care 
medical providers for those incarcerated at the county level.
    Good reentry programs have three components: a 
comprehensive assessment tool; evidence-based employment and 
life-skill-building programs that use community providers and 
resources; and case management and discharge planning. I have 
attached to my written testimony a detailed description of the 
four reentry programs we have for both men and women in Suffolk 
County as well as the results and the impact on recidivism that 
we get from those programs.
    In short, Senator, unless there is national leadership on 
reentry that includes support and funding for initiatives that 
involve collaboration between law enforcement and community 
service providers, tax incentives and other incentives for 
employers to hire ex-offenders, and sweeping changes to Federal 
and State drug laws, our recidivism rates will stay at more 
than 50 percent, and we will continue to spend more than $49 
billion a year on incarceration.
    Thank you for hearing me.
    [The prepared statement of Sheriff Cabral appears as a 
submission for the record.]
    Senator Cardin. Thank you very much for your testimony.
    Judge Bartle.

 STATEMENT OF HONORABLE HARVEY BARTLE III, CHIEF JUDGE, UNITED 
STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF PENNSYLVANIA, 
                   PHILADELPHIA, PENNSYLVANIA

    Judge Bartle. Senator Cardin, thank you for the opportunity 
you have given me to be here today.
    The purpose of the reentry program of the United States 
District Court for the Eastern District of Pennsylvania is to 
help those who have completed their prison sentences to reenter 
society as productive and law-abiding citizens and in this way 
to reduce recidivism and enhance public safety in the community 
we serve.
    As you know, all convicted felons in the Federal system 
must serve a term of supervised release, usually 3 to 5 years, 
once they are released from prison. During that time these 
offenders are under the supervision of a Federal probation 
officer. As Federal judges, my colleagues and I must deal on a 
regular basis with those who violate the terms of their 
supervised release. If the violation is also a crime, as is 
often the case, the court is likely to revoke the supervised 
release and send the individual back to prison with, of course, 
additional cost to the taxpayer. Then there are those who have 
completed their supervised release, are later convicted of new 
Federal crimes, and again are incarcerated. Consequently, our 
court decided that it was time to look for innovative ways for 
us to try to cope more effectively with this recurring problem 
of recidivism.
    The court, after full consideration, voted unanimously in 
the fall of 2007 to institute our reentry program now in place. 
Since then, the program has achieved an unprecedented and 
ongoing level of cooperation within the criminal justice 
system. This program has intensive court involvement. We are 
fortunate to have two superb magistrate judges to oversee and 
participate in the program in a hands-on manner.
    The candidates for the program are Philadelphia residents 
on supervised release who usually score 5, 6, or 7--on a scale 
of 0 to 9--that is, medium to high risk, on Federal Probation's 
Risk Prediction Index for future crimes. Initially, the 
probation officers will screen the candidates and recommend 
those suitable for participation, with input from the United 
States Attorney's Office and the Federal defender. No 
candidate, however, is placed in the program unless he or she 
is willing to participate. The program typically lasts 1 year 
with intensive efforts to provide a candidate with training and 
employment, if necessary, and to offer guidance and assistance 
with other aspects of life in which the individual needs help.
    To aid the candidates, the program has developed 
partnerships with the local bar association, universities, law 
schools, and career training and placement centers. There is a 
probation officer specifically designated to the program, as 
well as an Assistant United States Attorney and an assistant 
public defender.
    For any who do not comply with the strictures of the 
program, the magistrate judge may deprive a candidate of credit 
for a certain period of time in the program and also impose a 
curfew, halfway house confinement, up to 7 days' imprisonment, 
or drug treatment. If a serious infraction occurs, the 
individual can be evicted from the program and referred to the 
sentencing judge for further action.
    The only incentive that is offered, in addition to the 
intensive assistance given to each ex-offender, is a reduction 
of year in the term of supervised release if the program is 
completed successfully and the judge who sentenced the 
individual agrees to the reduction.
    The magistrate judge holds sessions of the reentry court 
twice a month at which time all current participants in the 
program appear as a group. Beforehand, the magistrate judge has 
met privately with the probation officer, an Assistant United 
States Attorney, and a public defender to review the progress 
in each case. At the court session, each participant approaches 
the lectern and has a conversation with the magistrate judge. 
Family members and friends are encouraged to attend, and each 
session, of course, is open to the public. At the court session 
the magistrate judge listens, encourages, offers advice, and, 
if necessary, imposes certain sanctions. Finally, there is 
always the all-important ``graduation'' event in the courthouse 
for those completing the course. Usually, the sentencing judge 
attends and at that time formally signs the order reducing the 
term of supervised release. On one occasion, Mayor Michael 
Nutter of Philadelphia spoke. Family members and friends are 
always in attendance. It is a very uplifting experience for all 
concerned, as I can attest from having participated in several 
graduations.
    Since its inception, our reentry program has been a great 
success. As of July 2009, 76 former offenders have either 
graduated or are currently participating in the program. Only 
12 or 16 percent have had their supervised release revoked 
based on new criminal activity or other violations. The 
revocation rate is well below the 47.4-percent rate for the 
period 2003 to 2008 for the same category of high-risk ex-
offenders.
    The program also saves significant taxpayer dollars. In 
2008, it was estimated that the annual cost of incarcerating a 
person in the Federal prison system was $25,000, roughly, and 
$3,700 for each year of supervised release. This program in our 
district has saved the government, we estimate, over $380,000. 
Finally, we have enlisted Temple University to study the long-
term success rate of the program.
    The Eastern District of Pennsylvania strongly endorses its 
reentry program and highly recommends it to our sister Federal 
and State courts. Thank you very much.
    [The prepared statement of Judge Bartle appears as a 
submission for the record.]
    Senator Cardin. Judge, thank you for your testimony. 
Impressive results.
    Chief LoBuglio.

 STATEMENT OF STEFAN LOBUGLIO, CHIEF, PRE-RELEASE AND REENTRY 
DIVISION, MONTGOMERY COUNTY, MARYLAND DEPARTMENT OF CORRECTION 
            AND REHABILITATION, ROCKVILLE, MARYLAND

    Chief LoBuglio. Thank you, Senator Cardin, for my being 
able to offer testimony. My name is Stefan LoBuglio, and I am 
Chief of Pre-Release and Reentry Services for the Montgomery 
County Department of Correction and Rehabilitation in Maryland. 
In my position, I oversee a work-release program that 
transitions prisoners back into the community. Today our 
program is supervising 175 male and female prisoners who are 
all within 1 year of release and who will complete their 
sentences in our community-based program.
    Our population includes today 26 prisoners from the Federal 
Bureau of Prisons, 5 prisoners from the Maryland State Division 
of Corrections, and 144 prisoners from the local jails in 
Montgomery County. These individuals have committed crimes 
ranging from misdemeanant petty offenses like theft and traffic 
offenses to Part I felony offenses for rape and homicide. They 
may be serving sentences ranging from 30 days to 30 years. They 
are all within 1 year of release. A conviction for escape is 
the only offense that would disqualify a person from 
consideration for our program.
    We strongly believe in Montgomery County--and this is 
supported by research--that if prisoners are returning back to 
our area, we enhance public safety by transitioning them 
through a community-based program regardless of the offense 
types and whether they are returning from the Federal, State, 
or local correctional systems.
    The pre-release program requires offenders to follow a 
customized reentry plan of work, education, treatment, and 
family engagement. They pay program fees, taxes, child support, 
and restitution. Most reside in the 177-bed community 
correctional facility that is located 15 miles from this 
hearing room in Rockville, Maryland.
    For almost 40 years, the program has served to keep our 
jail undercrowded by managing 16,000 clients in our center. In 
concert with the other operational divisions of Montgomery 
County, the program serves as a vital component of our county's 
investment strategy to effectively and judiciously use 
community-based programs and jail beds to maximize public 
safety and to minimize social and economic costs. We are part 
of the first line of defense that is the subject of today's 
hearing.
    Our program is one of many successful models of prisoner 
reentry that exist across the county, and our field has seen an 
explosion of interest. However, with all of the accumulated 
knowledge of and interest in what works in prisoner reentry, 
there is a question of why hasn't reentry penetrated the core 
of correctional practice. Perhaps some delay is to be expected 
because of the change of complex correctional operations that 
have grown so large in recent decades. A second and less 
examined reason, though, concerns the lack of incentives for 
correctional programs to fully embrace a commitment to reentry 
and to take responsibility for reducing recidivism rates. 
Providing care, custody, and control in our jails and prisons 
is challenging to be sure, but fully within the scope and 
ability of correctional professionals. By definition, reentry 
extends the focus of corrections into the community and beyond 
the safe confines of the prison walls, which makes it feel 
risky to many correctional practitioners. Adapting this new 
orientation is inhibited by the fact that the results are not 
easily measured, understood, or controlled.
    In my written testimony, I suggest two critical roles that 
the Federal Government can and should play to expedite the 
development and adoption of robust reentry strategies in our 
correctional systems. The first involves providing States and 
local jurisdictions with incentives to develop an 
infrastructure of One-Stop Reentry Residential Centers, like 
our Montgomery County Pre-Release Center that you saw on 
Monday, in conjunction with the Federal Bureau of Prisons. The 
centers are needed because prisoners return from all three 
correctional systems at different frequencies and times. But 
inmates from all three systems present similar public safety 
risks and have similar transitional requirements. Within a 
community, the centers would serve as the nexus for social 
services and for public safety monitoring.
    Federal incentives can change the landscape of corrections. 
In 1994, the truth-in-sentencing legislation tied Federal 
subsidies for construction of prisons to sentencing reforms and 
helped spur a boom in prison construction. Under this proposal, 
the Federal Government could use the same strategy by offering 
incentives to build and coordinate the operations of one-stop 
reentry residential centers.
    The second role involves developing robust data systems and 
analytical capabilities that would allow jurisdictions at all 
levels to measure key reentry performance measures in real time 
and to readjust resources and policies as needed. The COMPSTAT 
model of informational analysis and resource deployment that 
transformed the New York City Police Department in the 1990's 
and that has fueled the growth of community policing nationwide 
provides the example of what is needed to spur development of 
reentry strategies. Unfortunately, the myopic focus on 
recidivism rates as the single measure of success of reentry 
programs often obscures other key measures of community well-
being and public safety. Also, recidivism proves surprisingly 
difficult to measure and interpret. For a recent study in 
Montgomery County, we encountered significant challenges in 
measuring our own recidivism outcomes. The sheer effort it took 
and the accompanying time until results are known mean that 
this type of research will be done sporadically, not routinely, 
and it is the routine rapid feedback loop that is a cornerstone 
of the COMPSTAT and related innovations that have improved law 
enforcement performance in other areas and which could do the 
same for reentry.
    Thank you.
    [The prepared statement of Chief LoBuglio appears as a 
submission for the record.]
    Senator Cardin. Chief LoBuglio, thank you very much for 
your testimony.
    Mr. Burris.

   STATEMENT OF DOUG BURRIS, CHIEF PROBATION OFFICER, UNITED 
STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF MISSOURI, ST. 
                        LOUIS, MISSOURI

    Mr. Burris. Thank you. I first must start off by expressing 
my sincere gratitude for allowing me to testify today. It truly 
is an honor. I am here representing the Eastern District of 
Missouri, where I serve as the Chief U.S. Probation Officer. I 
have held this position for over 9 years and believe that I 
have the best job on the planet. I wake up without an alarm 
clock at 5 o'clock every morning and cannot wait to get to 
work.
    With well nearly 2,400 people on our caseload, my district 
ranks th in size of the 94 districts that make up the Federal 
system. In spite of ranking 18th overall, we rank in the top 
ten in the number of people on supervision for firearms, 
methamphetamine, and crack cocaine convictions. Specific to 
firearms cases, we rank seventh. More people are on supervision 
for a Federal firearms conviction in St. Louis than are on 
supervision for the same crime in Chicago, Los Angeles, or New 
York City. As to drug cases, Eastern Missouri ranks sixth in 
size for crack cases. In fact, early in 2008 our district 
hosted one of two Federal crack summits, where people from 
throughout the Nation convened to prepare for the retroactive 
change that took place with the crack laws in March of 2008. I 
hope to discuss these cases in detail later.
    Having shared this information, it is probably no surprise 
that the Eastern District of Missouri has one of the most at-
risk caseloads in the system. We also have one of the top ten 
revocation rates. Last year, 2008, our risk prediction average 
was second in the Nation of the 94 districts.
    We decided to try to take a look at reducing recidivism, 
and a wave of change took place in our district when we began 
collaborating with various community partners and doing what we 
could in eliminating barriers to success. The first area that 
we concentrated on was employment.
    To share the importance of employment on recidivism, all 
one has to do is examine the impact of having a job at the time 
of a case closing. Federal statistics show that individuals who 
have the highest risk and are unemployed at the time 
supervision starts and ends have a revocation rate of 78 
percent. However, the same individuals with the highest risk 
levels who start and end supervision unemployed had a 
revocation rate of only 23 percent.
    We started our ex-offender employment program, and our 
unemployment rate in the community at the time was 3.6 percent. 
Our caseload unemployment rate at that time was 12.1 percent. 
Aiming to lower the caseload rate, we received training from 
the National Institute of Corrections on an Offender Workforce 
Development curriculum. This set the foundation for our 
program. We began seeking employers who offered a living wage 
and health benefits, not minimum wage and part-time fast-food 
positions. At the beginning, we had a lot of doors slammed in 
our face. However, with the help of various incentives and 
promises to employers that we would do all we could to 
eliminate barriers, we began having some success. Nothing 
breeds success like success, and we eventually achieved 
something that I never dreamed possible. Local governments and 
law enforcement groups began endorsing ex-offender employment 
as a crime reduction strategy. Additionally, nearly 5 years 
ago, our caseload--once again one of the most at-risk caseloads 
in the entire system--experienced an unemployment rate less 
than that of the community. For the last 47 months now, our 
caseload unemployment rate has been less than the community 
unemployment rate. When a snapshot was taken last month, our 
caseload unemployment rate was 4.3 percent, while the general 
population unemployment rate was 9.5 percent.
    As mentioned previously, our revocation rates have 
decreased as well. While we had a risk prediction average that 
ranked second nationally, our revocations did not rank the 
same. In fact, our revocations ranked 53rd instead of second. 
The number of people under our supervision has more than 
doubled since 2000, yet we file less violation reports now than 
we did 9 years ago.
    Earlier in my testimony, I mentioned wanting to further 
discuss the subject of those released from prison because of a 
crack reduction. Thus far, nearly 200 people have returned home 
to Eastern Missouri because of this change in law in my 
district, again ranking in the top ten nationally. More than 
half of those who benefited from this retroactive change have 
been home more than a year. In total, only six of those 
released to Eastern Missouri by way of a crack reduction have 
failed supervision and returned to prison. Thus far this is a 
failure rate of only 3.2 percent.
    Every day I get to go to work with an outstanding group of 
judges, probation staff, and community partners who create 
stories that would just amaze you. I truly do have the best job 
on the planet.
    Thank you again for this opportunity.
    [The prepared statement of Mr. Burris appears as a 
submission for the record.]
    Senator Cardin. Well, Mr. Burris, those are certainly very 
impressive numbers. It is a pleasure to have you here.
    Ms. Solomon.

 STATEMENT OF AMY L. SOLOMON, SENIOR RESEARCH ASSOCIATE, URBAN 
                   INSTITUTE, WASHINGTON, DC

    Ms. Solomon. Thank you. Senator Cardin, thank you for the 
opportunity to speak here today.
    For the past years, we have focused on the more than 
700,000 prisoners returning home each year from State and 
Federal prisons. Only recently have the 12 to 13 million 
releases from local jails gained attention.
    The traditional approach to incarceration is to keep 
inmates locked up away from society to keep us safe. With 
little treatment and transition planning, most are released 
with the same problems that they were locked up with.
    To be clear, business as usual does not produce the results 
we want. Since almost everyone in jail will eventually return 
home, the big question is how do we imprison and release people 
in a way that makes them less likely to reoffend and more 
likely to work, support their families, pay taxes, and be 
productive members of society?
    It is not easy. Jail stays are brief. Less than 20 percent 
of inmates stay less than a month. Many are jailed only a few 
hours or days. This is not a lot of time for services and 
release planning. Also, jails house a variety of populations, 
most of whom have not been convicted of a crime. This means 
jails cannot easily predict when many people will be let out, 
which adds another complication. But the need for treatment in 
jails is acute.
    As you mentioned, many who cycle in and out of jail face 
multiple problems like substance abuse and mental illness, and 
they would benefit from interventions that begin in jail and 
continue in the community. Yet most jails do not have the time 
or capacity to help people overcome these serious deficits.
    Also, unlike prisoners who are typically released to 
supervision, most jail inmates are simply let out on their own. 
No single person or organization is responsible or held 
accountable for reentry assistance or oversight.
    There are also unique opportunities alongside these 
challenges. Short jail stays mean that people are not 
disconnected for long from their families, jobs, and churches, 
and because jails are locally sited, they can facilitate in-
reach with nearby service providers. These agencies, such as 
health and human service organizations, are likely already 
working with the very people who cycle in and out of jail. Not 
only are most repeat offenders using jail space over and over 
again, but they are also repeatedly using human services.
    Over the past 4 years, the Department of Justice has made 
strategic investments to assist the field. In 2006, the Bureau 
of Justice Assistance funded a local jail reentry roundtable. 
More recently, the Urban Institute has been working with the 
National Institute of Corrections to develop a transition from 
jail to community model, TJC, that can be adopted in 
jurisdictions large and small, urban and rural. TJC is not a 
program but a systems change approach, a way for jails and 
communities to work effectively together on a day-to-day-basis.
    So what does effective transition involve? Screening and 
assessment to quickly flag high-risk individuals; a transition 
plan to identify what people need most and how they will get 
it; and targeted interventions like drug treatment and job 
training that begin in jail and continue after release. The 
goal is to match the right treatment and requirements to the 
right individuals, focusing scarce resources on the 
interventions that are most effective and on the people who 
need them most.
    We are evaluating the TJC pilot sites so we can help guide 
jurisdictions toward success and document it when it occurs. In 
both TJC and the new Second Chance sites, we hope to see lower 
recidivism rates, higher employment, better health, and less 
drug abuse.
    The progress is real, but it is too soon to declare 
victory. While dozens of jurisdictions are working on reentry, 
there are more than 3,000 jails across the United States 
Through hearings like this one and by passing bipartisan 
legislation like the Second Chance Act, Congress signals to 
communities around the country that new directions are in 
order.
    Of course, funding through grants makes a difference, too. 
It fosters collaboration, seeds innovation, and funds real 
services. Congressional attention and funding signal to cities, 
counties, and States that a proactive approach to reentry is 
the way of the future--and they should not wait or they will be 
left behind.
    At the same time, we have much to learn about what works, 
so funding should also be used to rigorously evaluate new 
reentry efforts. It is critical that we figure out what 
approaches are most effective so that lessons learned can 
benefit the broader field.
    The work ahead is complex and implementation is difficult. 
But I am optimistic that well-implemented, research-informed 
reentry efforts will lead to safer, healthier communities for 
all Americans.
    Thank you for inviting me to speak.
    [The prepared statement of Ms. Solomon appears as a 
submission for the record.]
    Senator Cardin. Ms. Solomon, thank you for your testimony.
    Mr. Muhlhausen.

 STATEMENT OF DAVID MUHLHAUSEN, SENIOR POLICY ANALYST, CENTER 
     FOR DATA ANALYSIS, HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Muhlhausen. Thank you. My name is David Muhlhausen. I 
am a policy analyst in the Center for Data Analysis at the 
Heritage Foundation. I thank Chairman Benjamin Cardin, Ranking 
Member Lindsey Graham, and the rest of the Committee for the 
opportunity to testify today on prisoner reentry issues. The 
views I express in this testimony are my own and should not be 
construed as representing any official position of the Heritage 
Foundation.
    Congress's desire to weigh in on the recidivism rates of 
former prisoners is easy to understand. In 2007 alone, over 
725,000 prisoners were released back into society.
    While opponents of incarceration often argue that too many 
offenders are incarcerated in prison and that prisons are a 
burden on State budgets, they rarely recognize two important 
detail: First, as a percentage of State and local expenditures, 
the cost of corrections is not a burden on State budgets. In 
fiscal year 2007, corrections accounted for 3.4 percent of 
total State expenditures. Second, increased incarceration rates 
have reduced crime. Several studies have demonstrated a link 
between increased incarceration and decreases in crime rates.
    To address the issue of offender recidivism, the Federal 
Government should limit itself to handling tasks that fall 
under its constitutional powers and that State and local 
governments cannot perform by themselves. First, the Federal 
Government should operate evidence-based reentry programs for 
offenders formally incarcerated in the Federal correctional 
system. By evidence-based programs, I mean programs that have 
undergone rigorous scientific evaluations and found to be 
effective. Second, the Federal Government should not assume 
responsibility for funding the routine operations of State and 
local reentry programs. Providing basic services through 
Federal agencies that States themselves could provide for State 
and local prisoners is a misuse of Federal resources and a 
distraction from concerns that are truly the province of the 
Federal Government.
    Unfortunately, most reentry programs have not undergone 
scientifically rigorous evaluations. Despite the need for more 
rigorous evaluations, two recently published evaluations shed 
some light on the potential of these programs.
    An experimental evaluation of the Center for Employment 
Opportunities Prisoner Reentry Program found that placing 
recently released prisoners immediately into transitional 
taxpayer-subsidized jobs had underwhelming results. After 2 
years, the transitional job program failed to yield lower 
arrest rates. However, the intervention did have a lower effect 
on conviction rates. While this difference appears to be driven 
largely by the fact that participants were less likely to be 
convicted of misdemeanors, disappointingly, the program appears 
to have had no impact on felony convictions. I will add, 
though, the program did lower the conviction rate of 
participants.
    However, there is another program that may have more 
potential of reducing recidivism. The Boston Reentry Initiative 
used mentoring, social service assistance, vocational training, 
and education to help offenders reintegrate into society. A 
quasi-experimental evaluation of the program that used a strong 
research designed found that participants experienced a 
reductions of 30 percent for arrest rates, including violent 
arrests.
    What is astounding about this effect is that rather than 
selecting participants most amenable to rehabilitation, 
officials selected what they considered to be the highest-risk 
offenders for their participation in the program.
    While this evaluation found positive results, this program 
and others found to be effective need to be replicated and 
rigorously evaluated in other settings before policymakers and 
academics can conclude that these interventions are effective. 
Too often, criminal justice programs that have been deemed 
``effective'' and labeled as ``model'' programs have often been 
implemented under optimal conditions. When evaluated under 
real-world conditions and circumstances, these programs often 
fail to produce the same results.
    All levels of Government need to operate reentry programs 
for former prisoners under their respective jurisdictions. 
However, the Federal Government should not assume 
responsibility for funding the routine operations of State and 
local reentry programs.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Muhlhausen appears as a 
submission for the record.]
    Senator Cardin. Well, let me thank all six of you for your 
testimony. I found this extremely helpful and very interesting.
    Sheriff Cabral, let me start with you, if I might, because 
you said something that really stuck with me, and that is that 
basically the fate of a person who reenters will be largely 
determined in the first 48 hours, that if you do not 
successfully reenter within 48 hours, then the vulnerabilities 
are too great.
    Now, I am going to ask, does that depend upon whether the 
person has a job or the person has a place to go as far as 
housing, whether the person has a family to go back to, whether 
the person is healthy enough to make it outside of the 
institution, all of the above? Or what are the indicators on 
those first 48 hours?
    Sheriff Cabral. All of those things have an impact. If you 
have comprehensive reentry programs-in addition to the Boston 
Reentry Initiative that was referenced by the gentleman to my 
left, we have three other programs for men and women--and they 
are all gauged toward different levels of offenders. What you 
might put in place for a low-risk non-violent offender is not 
the same for what we call a high-impact player, someone who has 
an extensive criminal history, violates the law repeatedly, 
frequently uses a weapon. Those are the people that would be in 
the Boston Reentry Initiative. And you tailor your program 
based on the needs of the individual. You are constantly doing 
a ``risk to the public versus needs'' analysis.
    In some people's cases, what they need, they have stable or 
relatively stable family life, but they need to reenter the job 
market or start in the job market. Some need housing. Some need 
both.
    What we have also found, our programming for women is 
gender specific. In order for reentry programs to be effective 
for women, they need to be gender specific. Women have very 
different needs and very different reactions and responses to 
inmate programming, and you have to build in a lot of things 
around self-esteem and trauma. I think the Bureau of Justice 
Statistics says that over 70 percent of women who are 
incarcerated have experienced domestic violence or sexual 
assault before the age of 17 or by the age of 17. Trauma plays 
a huge role in criminal behavior. And it is not an excuse, 
being victimized oneself is not an excuse for victimizing, but 
we continue to ignore the fundamental causes of criminal 
behavior at our peril, so that by the time you get to the back 
end--and I would disagree with the gentleman to my left. I 
think that there is an enormous burden on State budgets for 
incarceration and an additional burden with regard to reentry 
programs. Many of us who are doing them are doing them with 
money that we are taking out of our own budgets because we see 
it as so necessary to having a positive public safety impact on 
our communities.
    But you really need to have comprehensive services in pre-
release so that people will make those good choices within the 
first 48 hours. Their options within the environments to which 
they return are limited, and all the negative influences are 
right there in those environments. They are the same places 
that the criminal behavior sprang from. So what we try to do is 
give people alternatives and opportunities and reasons to hope 
that their lives will be better and that they will be better 
parents, that they will be productive members of society. And 
if they make good choices within the first 48 hours and a 
little bit beyond, then they are at least on the road to 
continuing to make them and have an impact on reducing our 
recidivism rates.
    Senator Cardin. Mr. Burris, as I commented earlier, your 
numbers are really very impressive, and I see your enthusiasm 
is paying off for the people that you supervise.
    Mr. Burris. Thank you.
    Senator Cardin. And congratulations for your service. It is 
just incredible numbers. But you also are showing something 
that I think we all understand, and that is, if a person has an 
employment opportunity, their chances of successful reentry are 
much greater than if they do not have an employment 
opportunity. If they come to the penal system with skills and 
jobs, they are much more likely to return successfully to the 
public. Whereas, if they do not,the challenges are much 
greater.
    Mr. Burris. That is absolutely correct. In fact, the Bureau 
of Prisons has run some studies on recidivism, and the RDAP 
program, the 500-hour drug treatment program that so many 
people get to use--which is a fantastic program--shows a 16-
percent reduction in recidivism. The vocational training 
programs within the Bureau of Prisons show a 33-percent 
reduction in recidivism.
    Senator Cardin. Well, you know, these are numbers--I think 
this is what Mr. Muhlhausen and Chief LoBuglio both are 
agreeing on, and that is, we need better statistical 
information to evaluate what works and what does not work. I 
found agreement between both of your testimonies on that point.
    Chief, it seems to me that there has not been enough of 
this evidence-based review or oversight in order to really 
understand best practices, in order to establish national 
models from what is being done in our local jails. Is that a 
fair statement?
    Chief LoBuglio. Sure. It is just very difficult right now 
to use Federal data, State data, local data, court data, 
corrections data to do an overall analysis of recidivism. Ann 
Peale, who is a professor at Rutgers University, made a comment 
at the recent national conference on sentencing guidelines 
where she said that doing recidivism analyses in 2009 is as 
difficult as it was 20 years ago, despite the fact that 
information technology has transformed other aspects of our 
lives.
    So as correctional managers, we have difficulty right now 
getting our hands on this data and using this data in real 
time. I am interested as much in recidivism for the statistic 
as for understanding what belies it. What is the flow of 
individuals, of offenders within our correctional system? Is it 
in a given month or year I am seeing high numbers of recidivism 
because of changes in probation or parole practices or police 
practices? That would be helpful for me to know. It would be 
helpful for me to be able to engage probation and parole and 
police, and it might be that it is very reasonable and not 
necessarily a bad thing.
    So I think there is an appropriate Federal role to get our 
informational systems up to snuff, and in my written testimony, 
I said one of the most sort of discouraging aspects is that 
when we looked at the FBI NCIC data, which is the repository 
for our most serious crimes, that was not a complete record in 
comparison with the Maryland State arrest records, and neither 
was complete. Both needed to be accessed.
    Senator Cardin. Let me just ask you, the other 
recommendation you made is for Federal incentives to set up 
one-stop shops. The facility you operate is a residential 
facility that deals with inmates that are ready to be released 
within a short period of time, months to a year before they are 
released. Many come from the local jail. Some come from State 
and some come from Federal under arrangements, and all are 
basically being released into Montgomery County, Maryland.
    My question to you is--I do not know if you know this or 
not, but how many of these facilities do we have in Maryland? 
How many of these facilities are nationwide where we truly have 
one-stop shop pre-release or reentry areas that are available, 
that could provide somewhat comprehensive services in a 
residential capacity before an inmate is released? How many of 
these exist?
    Chief LoBuglio. Very few. The pre-release center, which was 
built in 1978, was meant to be a model for Maryland, and in the 
statutory legislation there was an expectation that they would 
be replicated in all the other counties. It has not happened.
    Now, there are halfway houses that are used in 
jurisdictions. Typically, the Federal Bureau of Prisons is 
using many of those beds.
    What we find and what I describe in my paper is that we 
have this unusual situation where in some jurisdictions we will 
have the Federal Bureau of Prisons using halfway house beds, 
but the State and the local jurisdictions are not using any 
type of pre-release residential center.
    You know, the recommendation of creating these one-stop 
reentry residential centers is really to respond to the fact 
that the Federal Government has a significant interest in 
having well-structured, strong programs that are strong on 
services and strong on accountability placed throughout the 
country.
    There are jurisdictions where the Federal Bureau of 
Prisons, which has done a good job in placing individuals in 
our type of programs, they do not have any beds available. And 
Northern Virginia is an example. I was speaking to Doug Burris. 
He was mentioning in Oklahoma, in one of the cities, there is 
no infrastructure right now.
    It is no surprise over the last 30 years we have built 
prisons, but our infrastructure of the residential centers is 
sort of dilapidated. It is aging. Many of them are owned by 
nonprofits that do not have the capital to invest, to meet 
higher building codes and higher correctional standards.
    Also, many halfway houses have not met the standards of 
what I think our program meets of strong accountability and 
strong services. They are not completely coupled with the 
mission of the correctional agency.
    I have not found more than a dozen to 20 programs like ours 
in the country where the staffing is sufficient, the funding is 
sufficient to really do both the public safety piece and the 
service piece well.
    Senator Cardin. Well, that is a shocking number, because 
you are a county facility, you are not even a State--I mean, 
you represent a relatively small part of the entire State of 
Maryland, so it is--we could use in Maryland alone perhaps as 
many as if each county had a similar facility.
    Chief LoBuglio. Right. Those smaller counties could----
    Senator Cardin. But at least that would save maybe--six to 
ten probably would be the adequate number for Maryland if we 
were to provide comprehensive----
    Chief LoBuglio. Right.
    Senator Cardin. You have got to be close to where the 
person is being released.
    Chief LoBuglio. That is right. And local jurisdictions face 
the challenge right now that the Federal inmates, they are 
coming out. They may serveyears in prison, but they are coming 
out at some point. The State inmates that are serving a little 
bit less time, they are coming out at some point. And the 
jails, they are coming out more quickly.
    There needs to be that first line of defense, and I think 
that one-stop reentry residential center is that place where we 
can stabilize them.
    In my testimony, I provide some results of our first 
recidivism analysis, and, you know, there is a chart in there--
it is Figure 3--that actually sort of demonstrates the question 
that you were asking a few minutes ago about the high risk of 
recidivism right near the time of release. And what we find--
and it is graphically presented--is that the risk actually 
increases after release, and then it dramatically decreases.
    So our challenge from a policy standpoint is to get 
individuals stabilized in the community, and that is going to 
involve the housing and the employment, the mental health, the 
substance abuse. No better place to do that in a one-stop 
reentry residential center like the one that you saw on Monday.
    Senator Cardin. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I would just agree with you. I think perhaps you and I have 
discussed the need for better statistical information. The 
Department of Justice in the Bureau of Justice Statistics has 
worked hard over the years and produces large amounts of 
information. But I am not sure--it is of a general nature 
sometimes and not so much intensely focused on the kind of 
reviews of programs that work and which ones do not work. And 
that is what we have to do. We periodically go through a spasm 
of concern over prisons, and we spend money, and then, I do not 
know, it just goes all out, and a few years later nothing has 
changed, and we are back here having the same kind of hearings 
that we are having today.
    I would say to you that Norm Carlson--some of you might 
remember him, former prison commissioner, and he said there is 
no area that he knew of in which more people thought they had 
the one answer to fix it than incarceration and prisons and 
crime. Everybody has an idea that they are convinced if it were 
done just like they suggested, this problem would--well, we 
have been trying. Ever since I have been in law enforcement 
since the late 1970's, everybody has had this program, that 
program, and another program, and it is supposed to work. I 
would just say this is a Bureau of Justice Statistics 2002 
release that says within 3 years of their release--in 1994 they 
did a major study--67 percent were rearrested. And most of the 
recidivism occurs in the first year, two-thirds of it in the 
first year.
    I wish this were not so. I mean, I wish it were not so. But 
I am not aware that there is any silver bullet.
    Now, Mr. Burris, you have got a program that you believe 
works, but you are not the first person that has come in to 
Congress and testified they have got a program that has 
dramatic results, but somehow it seems difficult to replicate 
it.
    Mr. Muhlhausen, you are sort of a--I do not know if you are 
a skeptic, but let me ask you, have you seen the Department of 
Justice or anyone else produce any studies that can help us see 
that this technique or process in working with prisoners can 
have significant improvements in the recidivist rate and their 
success on the outside?
    Mr. Muhlhausen. Well, I believe that the Federal Government 
has a large role and has done some----
    Senator Cardin. Please turn your microphone on.
    Senator Sessions. Push your microphone button there.
    Mr. Muhlhausen. I believe the Federal Government has done 
some evaluation in this area. It could do more. But the 
prisoner reentry program, CEO, Center for Employment 
Opportunities, was funded by the Federal Government. The study 
of the Boston Reentry Initiative was funded by the Federal 
Government, and one program, the transitional job program, CEO, 
in my opinion found some effects, but it really was not 
impressive. But the Boston Reentry Initiative had really 
impressive effects.
    Now, as the skeptic is me is concerned, the evaluation was 
not a randomized experiment, which is the gold standard of 
finding causal effects; it was not done for that study. Even 
though it was, in my opinion, a very good study, my question 
would be: Can we replicate those impressive findings of a 30-
percent drop in arrest rates for participants in another area 
under an even stronger research design? And maybe that is 
something the Federal Government could help State and local 
government do.
    Senator Sessions. I think that is good, Mr. Chairman. Some 
of this money, we need to think about how to do that because we 
have seen dramatic things. I remember the Boston project with 
juveniles in which the probation officers stopped just having 
the juveniles come in once or twice a month and report. They 
would go out at night with the police officer, and if the 
curfew was 7 o'clock and they were not at home where they were 
supposed to be, they would do something to them. There was a 
consequence to that. And they claimed dramatic improvements, 
90-percent reduction and all this.
    I suspect some of that was exaggerated, but if you had a 
30-percent reduction, that would be worthwhile.
    Mr. Muhlhausen. That was the Boston Operation Cease-Fire, 
and that program, elements of that have been replicated in 
Chicago, and there is some research that they are actually 
having some success in Chicago with former offenders who are 
gang members and who were very likely to be suspected of 
committing violent offenses after release. And they have gone 
to them and told them, ``We know who you are, and if you make 
mistakes, we are going to come down on you.'' And so there is a 
real deterrent effect, and there is some research to suggest 
that that program has a positive effect in reducing recidivism 
in another jurisdiction.
    Senator Sessions. That strikes me as similar to the drug 
court programs for adults in which you go from--the alternative 
to incarceration is very intensive supervision, and they 
require the drug offender to come in, and most of these had 
drug problems and were not major traffickers, or they are not 
supposed to be. And the judge monitors them, drug testing 
regularly, and if they do not do what they are supposed to do, 
there is a consequence immediately. They are supposed to go and 
apply for a job. They do not. They get fired because they did 
not show? There is a consequence. You want to not be in jail? 
We will let you work. But if you do not show up and you get 
fired or you get caught stealing, we put you back in jail, and 
those kinds of things. But it takes a lot of intensity.
    Mr. Burris, do you think that is a fundamental model that 
has some potential for taking a chance on a prisoner that you 
might otherwise put in jail?
    Mr. Burris. Absolutely, Your Honor. In fact, we have a 
post-release----
    Senator Sessions. You can call me ``Your Honor,'' but I 
am----
    [Laughter.]
    Mr. Burris. I am sorry.
    Senator Sessions. I can tell you have testified in court, 
which gives me some confidence in your real experience.
    Mr. Burris. Sorry, Senator. But your question, absolutely 
yes. In fact, we proudly stole a drug court model to use on 
post-release defendants and implemented it about a year and a 
half ago. And one of the programs we visited was Philadelphia, 
and I am sure the judge could talk about the incredible success 
they have had. We have reviewed the Temple study, the Temple 
University study, and it is showing some amazing results.
    Also, we have done exactly several of the things that you 
have discussed. In my district, probation officers have 
mandatory evening and weekend hours. They are not going to just 
see someone across the desk from them. The worst example of 
what can happen with that----
    Senator Sessions. What did you say about evening hours?
    Mr. Burris. The probation officers are required to go into 
the field on the weekends and evenings as opposed to seeing 
them across a desk in a probation office. And the example that 
we----
    Senator Sessions. Well, that is not a little bitty thing 
for State employees who prefer not to work on weekends and at 
night. Has that transition worked?
    Mr. Burris. Absolutely. Absolutely. And we were able to see 
problems start early and do interventions before they became 
huge, and we were able to get good relationships with family 
members, employers, things along those lines, and it is really 
producing excellent results.
    Senator Sessions. Per defendant, per probation officer, it 
is a lot more hours committed. Is that correct?
    Mr. Burris. It is.
    Senator Sessions. I mean, it is one thing to have 10 to 20 
people come into your office for 30 minutes. It is another to 
go out to 10 people's homes at night. That takes a lot more 
time in resources and costs.
    Mr. Burris. It is, Senator. Yes, it is.
    Senator Sessions. Judge, I would just say 20 years ago, 
gosh, I supported--in Mobile we were able to replicate, one of 
the first places in the country to replicate the drug court 
that started in Miami, Judge Goldstein and that group in Miami, 
and they made national news and so we just did it. And I think 
it was pretty--it worked some, but you just do not bring 
somebody in and they cease being an addict, they do not cease 
being a thief the next day just because--I wish it were that 
easy.
    Judge, maybe you would comment, and that will be all.
    Judge Bartle. Well, our program is very intensive. It 
involves two magistrate judges who are constantly monitoring 
those offenders who are in the program. It is not limited 
simply to those who are either drug addicts or who have 
committed drug offenses. We have many who have committed other 
offenses, gun offenses, other violent offenses, and the key is 
the supervision by the magistrate judge who not only is someone 
there to punish but is there as a mentor and counselor and 
guide for the people in the program. And I think it is 
extremely important that someone in high authority takes an 
interest in someone and guides them and encourages them.
    One of the other factors in our program is that we 
encourage family involvement, and the sessions that are held 
each month, family members participate. They come to court--
girlfriends, spouses, mothers and fathers, and so forth. And I 
think that is another very important aspect of our program. And 
as I mentioned earlier, we have a wonderful graduation program 
at the end of the year where we give them certificates, 
recognize their achievements, and the sentencing judge 
participates and at that time formally signs an order reducing 
supervised release by a year, and the sentencing judge usually 
makes a statement about the individual and says how pleased he 
or she is that the ex-offender has graduated and has become a 
productive member of society.
    So these intangible factors I think are extremely important 
in any successful program to reduce recidivism. But it takes a 
lot of effort. We have a probation officer assigned 
specifically to this, and we have two magistrate judges who, in 
addition to their regular duties, are participating in these 
afternoon programs. They begin at 4 o'clock. Prior to that 
time, each magistrate judge will meet with the probation 
officer and Assistant U.S. Attorney and a defender to review 
the progress in each case. So it is very time-consuming, but 
our program is one which has not involved an extra dime of 
Federal money. We have been able to reallocate our resources to 
maximize the benefit to the offender and to reduce recidivism 
in the cases that participate in the program.
    Senator Sessions. I think that is a similar project to the 
methods of the program that was established 20 years ago, and I 
do think it works. In general, I do believe that, but it is not 
a cure-all. It just does not eliminate crime, but if you can 
get a measurable improvement, we should consider it, and I 
think you do get a measurable improvement.
    Judge Bartle. Yes, we do. We do not claim that we have 
eliminated all recidivists as a result, but the reduction in 
recidivism is significant, taking into account particularly the 
high-risk offenders who participate in the program.
    Senator Cardin. I think your numbers are very impressive, a 
70-plus completion rate, only a 12- to 16- percent revocation 
rate. That is a pretty impressive number, your program. We have 
been joined by the Chairman of the Subcommittee, Chairman 
Specter. I thanked him earlier for allowing me to have the 
gavel for this hearing.
    Senator Specter.
    Senator Specter. Well, thank you very much, Mr. Chairman, 
and thank you for convening this hearing with this 
distinguished panel of witnesses. I am sorry I could not be 
here earlier, but the subject matter of the ``First Line of 
Defense: Reducing Recidivism at the Local Level'' is a subject 
that I have been interested in for a long time.
    I have long believed that the problem of violent crime in 
America can be substantially ameliorated--it is never going to 
be solved--by doing two things: one, life sentences for career 
criminals; and, secondly, realistic rehabilitation for reentry. 
And the grave difficulty has been to find the resources on 
reentry for detoxification, job training, literacy training. No 
surprise if you release a functional illiterate from jail 
without a trade or a skill, the person goes back to a life of 
crime. So that has been the battle.
    We legislated and signed into law last year the Second 
Chance Act which applies to State and local government, and the 
program which has been described by Chief Judge Bartle is 
enormously impressive, with tremendous statistical results. And 
it shows it would be of great potential savings. We are penny-
wise and pound-foolish not to utilize these programs to try to 
reduce recidivism. So I thank you for convening this hearing.
    Let me take a moment to note my long association with Judge 
Bartle, a very distinguished career--even if he went to 
Princeton.
    [Laughter.]
    Senator Specter. He partially redeemed himself by being a 
Penn Law graduate and joined a very prestigious law firm, which 
became even more prestigious, Dechert, Price & Rhoads, and was 
Insurance Commissioner and Attorney General. And among the 
pitfalls of his professional career, he practiced law with me 
for a while.
    [Laughter.]
    Senator Specter. I had the opportunity, along with Senator 
Heinz, to recommend him for the district judgeship. He has 
served there with great distinction since 1991, so I am 
especially pleased to see him in Washington today as a key 
witness, and I congratulate him on his outstanding career and 
what he is doing on this program, and I congratulate all of you 
for the work that you are doing.
    I like to limit my speeches to 3 minutes, and I am 4 
seconds over. Thank you, Mr. Chairman.
    Senator Cardin. Well, I just really wanted to point out 
that Judge Bartle's program is saving us a lot of money. The 
numbers that you gave about incarceration versus those who are 
in this program is incredible direct savings, and then the 
success rates of reentry save us even more money. So your judge 
is doing good work.
    Ms. Solomon, if I may ask you a question, you said 
something that had me thinking about the fact that we have a 
brief opportunity for individuals released from local jails. 
They may only be there a short period of time, and trying to 
develop a reentry program for a person who may only be 
incarcerated for 30 days or 45 days or 60 days.
    How do you deal with that? How can you successfully have 
reentry when you have a very limited exposure in dealing with 
that person and that person knows that he or she is going to be 
released very shortly, may not have the same incentives? Do you 
just give up, or do you try something? What do you do?
    Ms. Solomon. I think the key is to very quickly assess 
people, to screen them, find out who the high-risk people are, 
so that either the jail providers or the community providers 
who are coming inside the jail to start the work can work with 
the right people. And I think that one of the reasons we have 
the results we heard of from Boston and Chicago is because they 
are focusing on the highest-risk people who most warrant the 
resources, and that is where you can get the biggest bang for 
the buck.
    So I think the key is early screening and assessment, and 
then making sure if people are going to be out quickly that 
community providers are expecting their return and can start 
that work.
    If I can, I just want to weigh in very briefly on the 
evaluation issue and say that Joan Petersilia estimates we have 
got 10,000 or more reentry programs, and less than two dozen 
have rigorous evaluations. So there is so little out there, and 
I think that we have an opportunity with the Second Chance 
grantees that Senator Specter just spoke about to look at 67 
new sites and grantees who have a very high bar and a rigorous 
approach to how they are going about reentry. And right now 
there is no funded evaluation. I think we need to look hard at 
what they are doing so we can learn lessons there.
    I also want to just quickly talk about the CEO evaluation 
that was referenced. For the group of people who are brought 
into the program early, within their first 3 months of release, 
they actually did have bigger results. They had bigger results 
in terms of their recidivism, and it gets at the moment of 
release issue that the sheriff was talking about. If we catch 
people early, I think that there is a big opportunity to make a 
difference.
    Senator Cardin. That is an important point. Thank you for 
bringing that out.
    We have talked about jobs and education and services 
dealing with addiction and health care. I do not want this 
hearing to conclude without mentioning housing. I mention that 
because when I was in Frederick, which has a relatively small 
reentry program, they told me how extremely difficult it is to 
find affordable housing for someone who is not connected, who 
does not have a place to return to; that there is a stigma, 
first of all, in finding housing with someone who has a 
criminal record; and, second, there is just a shortage of 
affordable housing.
    I want to give you, any of you who want, an opportunity to 
talk about how serious an issue housing is for a successful 
reentry and whether there are models out there that we can look 
at to try to deal with this potential obstacle to successful 
reentry.
    Chief LoBuglio. I would be glad to say that it is indeed a 
huge issue for us. There are no magical solutions. The benefit 
of having residential community correctional beds is that you 
provide immediate housing, and then you allow an individual to 
work and earn money.
    In our experience, the best way to prevent homelessness is 
to have an individual get some money in the bank so that he or 
she can go through listings and find that apartment or 
opportunity to live. There is no magic solution, but you are 
advantaged if you have money in your bank account, and you do 
not typically if you are leaving a prison setting. That is one 
of the great advantages of a community correctional residential 
center. You have that opportunity. All residents can leave with 
$500 to $5,000 if they have been with us for a couple of 
months.
    Senator Cardin. You require your residents to actually save 
money. They are required to do it?
    Chief LoBuglio. That is right. They pay us a program fee, 
and they are also required to save 10 percent of their gross 
income, which is given at the time of release, and it is 
typically used for the housing piece, a deposit.
    Senator Cardin. Most of you talked about partnerships, that 
you cannot do this alone, you have to bring in other players. 
Are there nonprofits that are out there helping on housing?
    Sheriff Cabral. May I weigh in on that one?
    Senator Cardin. Yes, certainly.
    Sheriff Cabral. Thank you, Senator Cardin. I think I am on 
this time. I was not the last time.
    I wanted to talk about our CREW Program. I had mentioned 
earlier about gender-specific programming for women. We have 
partners on all of our programs. They are critical because 
corrections--we just do not have the budget in corrections to 
do it alone. But the CREW Program has two partners: the South 
End Community Health Center and Project Place. Project Place 
deals as a nonprofit with issues around housing and job 
placement, and they literally get housing for female inmates. 
And the reason we brought in the South End Community Health 
Center is because of the health care piece, which is so 
critical. If we can get women to go to their local health care 
providers, they will also bring their children, and that has a 
generational effect.
    But just to give you an idea of some of the numbers, once 
you get the person in the program, in pre-release, and you are 
building job skills and you are building life skills--and it is 
application that they do not open checking accounts. So even if 
they do have jobs, 15 percent of their checks are being taken 
by a check-cashing place because they do not have bank 
accounts. I mean, there are real fundamental life skills that 
most of us take for granted that are just absent in this 
population.
    But in terms of housing, we had, since we started the 
program, 260 inmates enrolled and 216 have graduated, and these 
housing statistics are for fiscal year 2009. Within 3 months of 
release, we had placed 66 percent of those graduates into 
housing, and we had placed 100 percent of them into housing 
within 6 months of release.
    We do a lot of residential treatment programs within the 
first 6 months as well, and one of the glitches here is that 
they get out of a residential treatment program after 6 months, 
and in order for Project Place to place them in permanent 
housing, they have to become homeless again and go back into 
the shelter pool. We try to get them out of the shelter pool 
immediately. It is not a very long transition. And then we can 
place them in permanent housing. But there is a gap between 
residential treatment, which everyone needs--and that is so 
critical to their success--and being able to move them smoothly 
into permanent housing, even with a nonprofit partner like 
Project Place.
    But our numbers for recidivism--nationally, they are 30 
percent--for the CREW Program graduates (and CREW is one of the 
few programs that has a 2-year follow-up and after-care 
component, so we can literally track people for 2 years in the 
CREW Program) the recidivism rate is 20 percent, so it is 10 
percent less than the national average.
    So the support, the wrap-around services, and the after-
care are effective.
    Senator Cardin. Thank you. I appreciate that.
    Mr. Burris. Senator, I know of a program, a faith-based 
program that we have utilized in St. Louis called the St. 
Patrick Center, and they have a program called Release to Rent 
for people that are released and have no place to go where they 
will pay for the first couple months of an apartment and then 
pro-rate it over the next year where the amount that they have 
to pay keeps going up and up.
    Part of the requirement for that is they have to 
participate in an intensive counseling and job training 
program, though, and we have had some real success with this 
program as well.
    Senator Cardin. That seems to be an alternative to what is 
done in Montgomery County where you have it all in one location 
through the county government. That seems like it is certainly 
a very valuable asset for that community.
    Mr. Burris. Yes.
    Senator Cardin. Senator Sessions.
    Senator Sessions. Ms. Solomon, you mentioned 67 programs. 
Are those going to be rigorously evaluated? Is that what you 
were saying that under the Second Chance----
    Ms. Solomon. They need to be.
    Senator Sessions. Need to be. Could be.
    Ms. Solomon. Yes, correct.
    Senator Sessions. Would provide nice laboratories for us if 
we studied effectively.
    Ms. Solomon. Yes. They were just funded and the 
evaluation----
    Senator Sessions. Well, one of the things that happens in 
the program that I--a couple things happen with grants. One of 
them is that people do not do anything until they get the 
grant. But you, Judge Bartle, like they did in Mobile, they 
just decided we needed to do the drug court and did it. It did 
not take any real extra money to make it all happen. And a lot 
of these programs can be done with existing staff if they are 
just focused with new ideas.
    Now, new money is necessary to do certain things. there is 
no doubt about it. But I just worry that people sit around 
waiting for somebody to give them a lot of money so they can 
take on a new effective program that they could probably do on 
their own.
    Mr. Muhlhausen, do you think we are--well, I will just back 
up. A number of years ago, we helped get some Federal money for 
a juvenile program, and I think we had local evaluators, but 
everybody seemed to have an interest in the program being 
successful. It did not have--what do you call it?--the 
competitive environment where somebody is really rigorously 
questioning the program. Because the program leaders wanted it 
to be successful, they tended to see success and ignore lack of 
success.
    So I am really interested if you think we could do a better 
job of creating the kind of rigorous evaluations that we could 
then say to the 90 percent of prisoners in State and local 
jails who have been arrested by State and local officials that 
these programs, properly managed by you, will work. Where are 
we on that?
    Mr. Muhlhausen. Well, I think we need to do a better job, 
and, unfortunately, I think a lot of people do not want program 
evaluations to be done because they are afraid of bad results.
    Senator Sessions. I think that is true.
    Mr. Muhlhausen. But I think also that if Congress gives 
grants to State and local agencies to do reentry programs, they 
should be evaluated, and Congress can help out by providing the 
funds and also mandating it in legislation, but also not only 
mandating it but following through, because this reminds me, 
when the Workforce Investment Act was passed in 1998, it 
mandated a randomized experimental evaluation of Federal 
workforce programs. Well, the Clinton administration never got 
around to doing it, and the Bush administration never got 
around to doing it, and Congress never seemed to care that 
evaluation of the workforce investment program based on a 
randomized experiment was done. They did a quasi-experimental 
evaluation that was done like a year or two ago, but if you 
really want to know if these programs work, the emphasis needs 
to be on randomized experiments.
    Senator Sessions. Well, Mr. Burris, and all of you, I would 
just say commitment by the people in charge with creativity and 
some skills in human nature seem to be the key to success. 
Would you agree, Mr. Burris? And what is your experience in 
that regard?
    Mr. Burris. Absolutely. To give you an example, Senator, 
one of our big obstacles has been transportation, and we do not 
have any funding for transportation, so we have actually held 
bake sales in our Federal courthouse to provide bus passes so 
people could get to and from work, to and from treatment, to 
and from home.
    Senator Sessions. And what do you think about--was it you 
or Mr. LoBuglio who talked about the intensive supervision? I 
would like maybe both of you to talk about fundamentally do you 
think that we could take money from incarceration and place it 
in intensive supervision of releasees and that that could have 
a positive effect.
    Mr. Burris. I would say yes, that it would have to be a 
community approach, though. As you stated, there is no silver 
bullet, magic bullet. You are going to have to pull every type 
of program, drug treatment, everything into it, along with the 
intensive supervision, and not just having a probation officer 
there 6 days a week. That will not work. But if you bring in 
the various programs, education, drug treatment, drug testing, 
everything like that, with the high-risk offenders, I think it 
can have a result.
    Chief LoBuglio. I think it is having results. I know the 
Council of State Governments, NACo, and others have been 
pushing this concept of a justice reinvestment strategy of 
looking at how much money is being spent in a jurisdiction, at 
the State level and at the local level, for corrections, for 
probation, for all sorts of things, and how best should it 
spend. And I think they have demonstrated some excellent 
results in Kansas and in Texas.
    I think it is enormously promising. I think the challenge 
is to make sure that jails are included and that local 
jurisdictions are included in that partnership.
    Senator Sessions. Well, local is where the action is. I 
mean, 90 percent of the people are prosecuted locally.
    Chief LoBuglio. That is right.
    Senator Sessions. So the Federal system should be done 
right, but so if you take money--the problem with States is--
one of the problems is that the probation officers in Alabama 
are paid by the State of Alabama. The district attorneys are 
paid by the State and local supplements, and the police chiefs 
operate from the city. And there are all these different 
budgets, and so it is just not easy to take money from 
probation officers and move it over to prisons or vice versa. 
And they have Congressmen and Senators and State 
representatives that protect turfs, and it is hard to get it 
done in a rational way. But I think what I hear you saying is 
that without placing the public at any real greater risk, maybe 
marginally, you could put more people under intense supervision 
and have a net gain for the public interest.
    Chief LoBuglio. Absolutely.
    Senator Sessions. But not just report in once a month to 
the probation officer.
    Chief LoBuglio. No.
    Senator Sessions. That is not what we are talking about.
    Chief LoBuglio. And it is going to be, you know, a 
customized strategy. Some individuals will have a house that is 
fine and they need employment issues and that is what needs to 
be focused on. Others will not. So we have to be very clever in 
how we do the reentry strategies. But I think there is 
tremendous promise.
    You know, in Montgomery County, three out of every ten 
sentenced offenders is managed in the community, and these are 
individuals that have committed Part I felonies as well as 
misdemeanants. And I think we demonstrate every day that you 
can place individuals--with proper services and proper 
monitoring, you can manage a large portion of your population.
    You know, one other thing that we have not talked about is 
that there are enormous benefits for these programs for the 
correctional officers and the correctional professionals in our 
Nation's systems. When you have programs that provide 
opportunities for individuals, inmates, that incentives them to 
work hard, to comply with the program, to get stepped down, to 
get to that ability where they can be with their--visit with 
their children and to work, you are having more compliance in 
our correctional facilities. You are also doing what I think 
Senator Specter alluded, that you are providing a greater 
sorting mechanism. Those who are most violent, most risky, 
should be using that hardened cell. Those who don't need that 
hardened cell, we should treat this as a scarce resource, can 
be managed in the community.
    Our metrics in 2008 is that collectively our prisoners earn 
$2 million. They paid taxes of $400,000. The same in program 
fees. They paid child support of $200,000. They paid 
restitution. They would not have paid any of that if they were 
incarcerated. We can manage some of our current--some of the 
individuals that are currently incarcerated with these types of 
intensive supervision programs and some of the programs with 
residential components.
    Senator Cardin. And I would also point out, Mr. LoBuglio, 
that your incarceration rates in Montgomery County, which is a 
very diverse county, a very urban county, is much lower than 
the national average. So you are also showing success in that 
respect, and it is impressive.
    I take away from this that we clearly need more 
information. I could not agree more with Senator Sessions and 
with the witnesses about evaluating the way programs are 
currently working. I think Senator Sessions' point about these 
hearings have been going on for decades is absolutely correct. 
And we do lay on programs, and we do not evaluate programs, and 
I think that is a very valid concern that has been expressed by 
most of the witnesses here, and it is something we need to take 
a look at.
    I do, though, agree that we have a real shortage of 
residential programs available for inmates who are going to be 
released in our communities that can provide comprehensive 
services so that a person has the best chance for successful 
reentry. I think the Montgomery County model is the right type 
of model. I also think you need adequate supervision, and I 
think the Pennsylvania model is the type of model that I would 
like to see in more jurisdictions around the country.
    So I think there are good examples of--and, Sheriff, your 
program is very, very effective. If I could bottle Mr. Burris' 
energy--he not only goes out at night and weekends; he gets up 
at 5 o'clock in the morning without an alarm clock, so this guy 
is----
    [Laughter.]
    Senator Cardin. We need that type of energy in the 
probation office, and it is a tough job. Unfortunately, the 
budgets for a lot of the probation departments are so strained 
that you do not have enough probation officers to do the type 
of work that they need to do. And I think Senator Sessions' 
point about budget is absolutely accurate. We have a problem in 
Maryland, as Mr. LoBuglio knows, that we could take more State 
prisoners into the county program, but the State does not have 
the budget to pay for it. And the State does not have the 
program. It is a county program. And the State is not 
encouraging other counties to develop these programs because 
the State is not really anxious to pay them the fees to deal 
with the reentry, even though it is going to cost our State a 
lot of money because we do not provide these services.
    So the budget accountability is certainly lacking in our 
system, and that is the main reason we wanted to hold this 
hearing, is to take a look at the local services. Senator 
Sessions is absolutely right. These programs are really local. 
I mean, our jails are local. The crimes are local. And it 
affects our Nation, and it is important that we establish a 
record here today, and I really do thank all of our witnesses 
for their participation.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. You have got 
mental illness questions, you have got alcohol. I remember a 
Department of Justice study that surprised me how many people 
commit serious crimes after being on a binge of 2 or 3 days of 
heavy, uncontrolled drinking, and they do something, like 
murder, and the next thing they are serving life in prison at 
the taxpayer's cost. So anything we can do to see that, I do 
think that we ought not to forget also that punishment is a 
legitimate part of the incarceration process, and if you see 
the criminal is merely somebody that has got a problem with 
trying to help, sometimes that is not the only approach to it 
either. Discipline is a big part of success in these programs.
    I thank you, Mr. Chairman, for your depth of interest in 
this, and we need to do better, and I appreciate your openness, 
and this is a good panel.
    Senator Cardin. Thank you very much, Senator Sessions.
    We have received statements from Chairman Leahy, Mary Lou 
Leary, the Acting Assistant Attorney General, Office of Justice 
Programs at the Department of Justice; Hon. Stephen Manley, 
Superior Court of California; Goodwill Industries of Frederick, 
Maryland. Without objection, those statements will be made part 
of the record.
    [The statements appears as a submission for the record.]
    Senator Cardin. The record of the Committee will remain 
open for 1 week. Again, I thank our witnesses, and with that, 
the Subcommittee will stand adjourned.
    [Whereupon, at 3:33 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T5985.001

[GRAPHIC] [TIFF OMITTED] T5985.002

[GRAPHIC] [TIFF OMITTED] T5985.003

[GRAPHIC] [TIFF OMITTED] T5985.004

[GRAPHIC] [TIFF OMITTED] T5985.005

[GRAPHIC] [TIFF OMITTED] T5985.006

[GRAPHIC] [TIFF OMITTED] T5985.007

[GRAPHIC] [TIFF OMITTED] T5985.008

[GRAPHIC] [TIFF OMITTED] T5985.009

[GRAPHIC] [TIFF OMITTED] T5985.010

[GRAPHIC] [TIFF OMITTED] T5985.012

[GRAPHIC] [TIFF OMITTED] T5985.013

[GRAPHIC] [TIFF OMITTED] T5985.014

[GRAPHIC] [TIFF OMITTED] T5985.015

[GRAPHIC] [TIFF OMITTED] T5985.016

[GRAPHIC] [TIFF OMITTED] T5985.017

[GRAPHIC] [TIFF OMITTED] T5985.018

[GRAPHIC] [TIFF OMITTED] T5985.019

[GRAPHIC] [TIFF OMITTED] T5985.020

[GRAPHIC] [TIFF OMITTED] T5985.021

[GRAPHIC] [TIFF OMITTED] T5985.022

[GRAPHIC] [TIFF OMITTED] T5985.023

[GRAPHIC] [TIFF OMITTED] T5985.024

[GRAPHIC] [TIFF OMITTED] T5985.025

[GRAPHIC] [TIFF OMITTED] T5985.026

[GRAPHIC] [TIFF OMITTED] T5985.027

[GRAPHIC] [TIFF OMITTED] T5985.028

[GRAPHIC] [TIFF OMITTED] T5985.029

[GRAPHIC] [TIFF OMITTED] T5985.030

[GRAPHIC] [TIFF OMITTED] T5985.031

[GRAPHIC] [TIFF OMITTED] T5985.032

[GRAPHIC] [TIFF OMITTED] T5985.033

[GRAPHIC] [TIFF OMITTED] T5985.034

[GRAPHIC] [TIFF OMITTED] T5985.035

[GRAPHIC] [TIFF OMITTED] T5985.036

[GRAPHIC] [TIFF OMITTED] T5985.037

[GRAPHIC] [TIFF OMITTED] T5985.038

[GRAPHIC] [TIFF OMITTED] T5985.039

[GRAPHIC] [TIFF OMITTED] T5985.040

[GRAPHIC] [TIFF OMITTED] T5985.041

[GRAPHIC] [TIFF OMITTED] T5985.042

[GRAPHIC] [TIFF OMITTED] T5985.043

[GRAPHIC] [TIFF OMITTED] T5985.044

[GRAPHIC] [TIFF OMITTED] T5985.045

[GRAPHIC] [TIFF OMITTED] T5985.046

[GRAPHIC] [TIFF OMITTED] T5985.047

[GRAPHIC] [TIFF OMITTED] T5985.048

[GRAPHIC] [TIFF OMITTED] T5985.049

[GRAPHIC] [TIFF OMITTED] T5985.050

[GRAPHIC] [TIFF OMITTED] T5985.051

[GRAPHIC] [TIFF OMITTED] T5985.052

[GRAPHIC] [TIFF OMITTED] T5985.053

[GRAPHIC] [TIFF OMITTED] T5985.054

[GRAPHIC] [TIFF OMITTED] T5985.055

[GRAPHIC] [TIFF OMITTED] T5985.056

[GRAPHIC] [TIFF OMITTED] T5985.057

[GRAPHIC] [TIFF OMITTED] T5985.058

[GRAPHIC] [TIFF OMITTED] T5985.059

[GRAPHIC] [TIFF OMITTED] T5985.060

[GRAPHIC] [TIFF OMITTED] T5985.061

[GRAPHIC] [TIFF OMITTED] T5985.062

[GRAPHIC] [TIFF OMITTED] T5985.063

[GRAPHIC] [TIFF OMITTED] T5985.064

[GRAPHIC] [TIFF OMITTED] T5985.065

[GRAPHIC] [TIFF OMITTED] T5985.066

[GRAPHIC] [TIFF OMITTED] T5985.067

[GRAPHIC] [TIFF OMITTED] T5985.068

[GRAPHIC] [TIFF OMITTED] T5985.069

[GRAPHIC] [TIFF OMITTED] T5985.070

[GRAPHIC] [TIFF OMITTED] T5985.071

[GRAPHIC] [TIFF OMITTED] T5985.072

[GRAPHIC] [TIFF OMITTED] T5985.073

[GRAPHIC] [TIFF OMITTED] T5985.074

[GRAPHIC] [TIFF OMITTED] T5985.075

[GRAPHIC] [TIFF OMITTED] T5985.076

[GRAPHIC] [TIFF OMITTED] T5985.077

[GRAPHIC] [TIFF OMITTED] T5985.078

[GRAPHIC] [TIFF OMITTED] T5985.079

[GRAPHIC] [TIFF OMITTED] T5985.080

[GRAPHIC] [TIFF OMITTED] T5985.081

[GRAPHIC] [TIFF OMITTED] T5985.082

[GRAPHIC] [TIFF OMITTED] T5985.083

[GRAPHIC] [TIFF OMITTED] T5985.084

[GRAPHIC] [TIFF OMITTED] T5985.085

[GRAPHIC] [TIFF OMITTED] T5985.086

[GRAPHIC] [TIFF OMITTED] T5985.087

[GRAPHIC] [TIFF OMITTED] T5985.088

[GRAPHIC] [TIFF OMITTED] T5985.089

[GRAPHIC] [TIFF OMITTED] T5985.090

[GRAPHIC] [TIFF OMITTED] T5985.091

[GRAPHIC] [TIFF OMITTED] T5985.092

[GRAPHIC] [TIFF OMITTED] T5985.093

[GRAPHIC] [TIFF OMITTED] T5985.094

[GRAPHIC] [TIFF OMITTED] T5985.095

[GRAPHIC] [TIFF OMITTED] T5985.096

[GRAPHIC] [TIFF OMITTED] T5985.097

[GRAPHIC] [TIFF OMITTED] T5985.098

[GRAPHIC] [TIFF OMITTED] T5985.099

[GRAPHIC] [TIFF OMITTED] T5985.100

[GRAPHIC] [TIFF OMITTED] T5985.101

[GRAPHIC] [TIFF OMITTED] T5985.102

[GRAPHIC] [TIFF OMITTED] T5985.103

[GRAPHIC] [TIFF OMITTED] T5985.104

[GRAPHIC] [TIFF OMITTED] T5985.105

[GRAPHIC] [TIFF OMITTED] T5985.106

[GRAPHIC] [TIFF OMITTED] T5985.107

[GRAPHIC] [TIFF OMITTED] T5985.108

[GRAPHIC] [TIFF OMITTED] T5985.109

[GRAPHIC] [TIFF OMITTED] T5985.110

[GRAPHIC] [TIFF OMITTED] T5985.111

[GRAPHIC] [TIFF OMITTED] T5985.112

[GRAPHIC] [TIFF OMITTED] T5985.113

[GRAPHIC] [TIFF OMITTED] T5985.114

[GRAPHIC] [TIFF OMITTED] T5985.115

[GRAPHIC] [TIFF OMITTED] T5985.116

[GRAPHIC] [TIFF OMITTED] T5985.117

[GRAPHIC] [TIFF OMITTED] T5985.118

[GRAPHIC] [TIFF OMITTED] T5985.119

[GRAPHIC] [TIFF OMITTED] T5985.120

[GRAPHIC] [TIFF OMITTED] T5985.121

[GRAPHIC] [TIFF OMITTED] T5985.122

[GRAPHIC] [TIFF OMITTED] T5985.123

[GRAPHIC] [TIFF OMITTED] T5985.124

[GRAPHIC] [TIFF OMITTED] T5985.125

[GRAPHIC] [TIFF OMITTED] T5985.126

[GRAPHIC] [TIFF OMITTED] T5985.127

[GRAPHIC] [TIFF OMITTED] T5985.128

[GRAPHIC] [TIFF OMITTED] T5985.129

[GRAPHIC] [TIFF OMITTED] T5985.130

[GRAPHIC] [TIFF OMITTED] T5985.131

[GRAPHIC] [TIFF OMITTED] T5985.132

[GRAPHIC] [TIFF OMITTED] T5985.133

[GRAPHIC] [TIFF OMITTED] T5985.134

[GRAPHIC] [TIFF OMITTED] T5985.135

[GRAPHIC] [TIFF OMITTED] T5985.136

[GRAPHIC] [TIFF OMITTED] T5985.137

[GRAPHIC] [TIFF OMITTED] T5985.139

[GRAPHIC] [TIFF OMITTED] T5985.140

[GRAPHIC] [TIFF OMITTED] T5985.141

[GRAPHIC] [TIFF OMITTED] T5985.142

[GRAPHIC] [TIFF OMITTED] T5985.143

[GRAPHIC] [TIFF OMITTED] T5985.144

[GRAPHIC] [TIFF OMITTED] T5985.145

[GRAPHIC] [TIFF OMITTED] T5985.146

[GRAPHIC] [TIFF OMITTED] T5985.147

[GRAPHIC] [TIFF OMITTED] T5985.148

[GRAPHIC] [TIFF OMITTED] T5985.149

[GRAPHIC] [TIFF OMITTED] T5985.150

[GRAPHIC] [TIFF OMITTED] T5985.151

[GRAPHIC] [TIFF OMITTED] T5985.152

[GRAPHIC] [TIFF OMITTED] T5985.153

[GRAPHIC] [TIFF OMITTED] T5985.154

[GRAPHIC] [TIFF OMITTED] T5985.155

[GRAPHIC] [TIFF OMITTED] T5985.156

[GRAPHIC] [TIFF OMITTED] T5985.157

[GRAPHIC] [TIFF OMITTED] T5985.158

[GRAPHIC] [TIFF OMITTED] T5985.159

[GRAPHIC] [TIFF OMITTED] T5985.161

[GRAPHIC] [TIFF OMITTED] T5985.162

[GRAPHIC] [TIFF OMITTED] T5985.163

[GRAPHIC] [TIFF OMITTED] T5985.164

                                 <all>

</pre></body></html>
